                OFFICE OF
         THE INSPECTOR GENERAL


             U.S. NUCLEAR
        REGULATORY COMMISSION




        Audit of NRC’s Regulatory Oversight of
               Special Nuclear Materials

             OIG-03-A-15     May 23, 2003




          AUDIT REPORT




All publicly available OIG reports are accessible through
                     NRC’s website at:
http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                              May 23, 2003




MEMORANDUM TO:                 William D. Travers
                               Executive Director for Operations



FROM:                          Stephen D. Dingbaum/RA/
                               Assistant Inspector General for Audits


SUBJECT:                       AUDIT OF NRC’S REGULATORY OVERSIGHT OF SPECIAL
                               NUCLEAR MATERIALS (OIG-03-A-15)


Attached is the Office of the Inspector General’s audit report titled, Audit of NRC’s Regulatory
Oversight of Special Nuclear Materials.

The report reflects the results of our audit to determine whether NRC adequately ensures its
licensees control and account for special nuclear material (SNM). We found that NRC’s current
levels of oversight of licensees’ material control and accounting (MC&A) activities do not provide
adequate assurance that all licensees properly control and account for SNM. Specifically, NRC
performs limited inspections of licensees’ MC&A activities and cannot assure the reliability of the
Nuclear Materials Management and Safeguards System data. Comments your office provided at
a March 5, 2003, exit meeting, during subsequent discussions, and in your May 14, 2003, written
response to the draft report have been incorporated, as appropriate, in our final report. Appendix
D contains the written response in its entirety. Appendix E contains our point-by-point analysis of
the agency’s formal comments.

It should be noted that throughout the audit, and in the formal written response to the draft report,
agency managers said that NRC applies a risk-informed approach to its oversight of licensees’
MC&A activities. OIG requested documentation describing the basis of, or framework for this
approach. The agency was unable to provide a documented basis or framework used to risk
inform its oversight of MC&A activities for all types of materials licensees. Consequently, OIG
recommends that the agency document the basis for this approach (see new Recommendation #3
in the final report).

If you have any questions, please call Russ Irish at 415-5972 or me at 415-5915.


Attachment: As stated

cc:     W. Dean, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
J. Silber, Acting CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
B. Mallett, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                       Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


EXECUTIVE SUMMARY

         BACKGROUND

                  The U.S. Nuclear Regulatory Commission (NRC) is authorized to grant licenses for
                  the possession and use of special nuclear materials (SNM)1 and establish
                  regulations to govern the possession and use of those materials. Practical uses of
                  SNM include (1) fuel for nuclear reactors; (2) industrial, academic, and medical
                  research and testing; and (3) the manufacture of industrial gauging devices (sealed
                  sources). NRC’s current Commission states that proper control and accounting of
                  SNM is an important component of the agency’s safeguards and security
                  programs.

                  NRC’s regulations require that certain materials licensees have extensive material
                  control and accounting (MC&A) programs as a condition of their license. However,
                  all license applicants2, including those requesting authorization to possess small
                  quantities of SNM, must develop and implement plans and activities that
                  demonstrate a commitment to accurately control and account for radioactive
                  materials. Licensees are also required to allow NRC to inspect the materials,
                  controls, and premises where SNM and source materials are used or stored.
                  Therefore, references to MC&A programs and inspections in this report incorporate
                  the activities required of all licensees to properly control and account for SNM in
                  their possession.

                  Additionally, NRC requires that materials licensees report information to the
                  Nuclear Materials Management and Safeguards System (NMMSS). NMMSS is a
                  computer database managed by the U.S. Department of Energy (DOE) and jointly
                  used with NRC as the national system for tracking certain private- and
                  Government-owned nuclear materials.

         PURPOSE

                  The Office of the Inspector General conducted this audit to determine whether
                  NRC adequately ensures its licensees control and account for special nuclear
                  material.


         1
             Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or uranium-
235, and any other material which the Commission, pursuant to the provisions of Section 51 of the Atomic Energy Act of
1954, as amended, determines to be special nuclear material, but does not include source material; or any material
artificially enriched by any of the foregoing, but does not include source material.

         2
          Title 10, Code of Federal Regulations (10 CFR) Part 20, Standards for Protection Against Radiation; Part 40,
Domestic Licensing of Source Material; Part 70, Domestic Licensing of Special Nuclear Material; Part 74, Material
Control and Accounting of Special Nuclear Material; Part 75, Safeguards on Nuclear Material -Implementation of
US/IAEA Agreement; Part 76, Certification of Gaseous Diffusion Plants; and Part 150, Exemptions and Continued
Regulatory Authority in Agreement States and in Offshore Waters Under Section 274.

                                                           i
                                      Audit of NRC’s Regulatory Oversight of Special Nuclear Materials

RESULTS IN BRIEF

       According to NRC managers, the agency has applied a risk-informed approach to
       its MC&A oversight. This approach results in certain materials licensees receiving
       routine MC&A inspections, while others receive minimal to no inspections of their
       material control and accounting activities. Additionally, NRC depends on licensees
       following through on their commitments to comply with regulatory reporting
       requirements, and relies on licensees’ data as the “official” record of the amounts,
       types, and locations of SNM without periodically validating the accuracy of the
       data.

       Today’s heightened sensitivity to the control of SNM warrants NRC’s serious
       attention to its licensees’ material control and accounting activities. However,
       NRC’s current levels of oversight of licensees’ MC&A activities do not provide
       adequate assurance that all licensees properly control and account for SNM.
       Specifically, NRC —

       A.     performs limited inspections of licensees’ MC&A activities, and
       B.     cannot assure the reliability of the SNM tracking system.

       Without adequate inspections to verify licensees’ commitments to MC&A, or a
       reliable SNM tracking system, NRC has no independent means for determining if
       SNM was lost, stolen, or otherwise diverted while in a licensee’s possession.
       Despite not being a regulatory requirement, having this independent ability would
       add value to the agency’s oversight abilities.


A. NRC PERFORMS LIMITED INSPECTIONS OF LICENSEES’ MC&A ACTIVITIES

       Licensees’ control and accounting of SNM is a fundamentally important safeguards
       measure. Consistent with its position to risk-inform the inspection program, NRC
       performs limited routine inspections of licensees’ MC&A activities.
       Staff consider that aspects of NRC’s regulatory framework, other than inspections,
       make it unlikely that SNM would be lost, stolen, or diverted. However, recently
       reported events, such as missing fuel rods at a nuclear power plant, raise serious
       questions about these assumptions. Without adequate and routine inspections of
       licensees’ MC&A activities, including periodic physical verification of licensees’
       inventories, NRC cannot reasonably ensure that its licensees are effectively
       controlling, and accurately accounting for, SNM in their possession.




                                         ii
                                    Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



B. NRC CANNOT ASSURE THE RELIABILITY OF THE SNM TRACKING SYSTEM

      NRC cannot assure the reliability of the national system used for tracking the
      types, quantities, and locations of the SNM it regulates primarily because
      management has not resolved longstanding problems with NMMSS operations and
      data, such as:

      •      the reliability of NMMSS data (e.g., completeness and accuracy), and
      •      interactions with DOE on NMMSS-related matters.

      As a result, NRC cannot ensure the accuracy and, therefore, the reliability of
      NMMSS data. Specifically, NRC cannot know in a timely manner, the amounts,
      locations, and types of SNM held by its licensees.

RECOMMENDATIONS

      A Consolidated List of Recommendations made to the Executive Director for
      Operations (EDO) is on page 19. It should be noted that an additional
      recommendation has been added to the final report in response to the agency’s
      comment on application of a risk-informed approach to oversight of licensees’
      MC&A activities (see Recommendation #3).

OIG ANALYSIS OF AGENCY COMMENTS

      On March 5, 2003, OIG discussed its draft report with agency senior executives.
      Subsequent to that meeting, OIG met with members of the EDO’s staff to address
      issues needing further clarification and/or explanation. On May 14, 2003, the
      Executive Director for Operations provided a formal response to this report, in
      which he stated general agreement with many of OIG’s observations and
      recommendations. However, the EDO stated that NRC will defer any actions on
      the recommendations related to the development of an independent accounting
      system for SNM until a study of the issue can be conducted. The EDO’s
      transmittal letter and specific comments on this report are included as Appendix D.

      This final report incorporates revisions made, where appropriate, as a result of the
      subsequent meetings and the agency’s formal written comments. Notwithstanding
      these revisions, the overall conclusions and recommendations have not changed.
      In effect, if the NRC was asked how much SNM a particular licensee has, the
      agency would have to ask the licensee and would have to accept the response as
      accurate because NRC performs only limited validation of the data in licensees’
      records and has no independent accounting system of its own. A point-by-point
      analysis of the agency’s comments is presented in Appendix E.




                                       iii
           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




              iv
                         Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


ABBREVIATIONS AND ACRONYMS

    CFR                  Code of Federal Regulations
    CY                   calendar year
    DOE                  U.S. Department of Energy
    DOE/IG               U.S. Department of Energy/Office of the Inspector
                         General
    FTE                  full-time equivalent
    FY                   fiscal year
    IAEA                 International Atomic Energy Agency
    MC&A                 material control and accounting
    MD                   management directive
    MLSR                 Monthly Letter Status Report
    NMMSS                Nuclear Materials Management and Safeguards
                         System
    NRC                  U.S. Nuclear Regulatory Commission
    NRR                  Office of Nuclear Reactor Regulation
    OIG                  Office of the Inspector General
    SNM                  special nuclear material




                             v
           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




              vi
                                                Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


GLOSSARY

   Byproduct material – (1) Any radioactive material (except SNM) yielded in or made
   radioactive by exposure to the radiation incident to the process of producing or utilizing
   SNM and (2) the tailings or wastes produced by the extraction or concentration of uranium
   or thorium from any ore processed primarily for its source material content. [Source: Atomic
   Energy Act of 1954, Section 11(e)]

   Critical mass – Amounts greater than, or equal to, 200 grams of plutonium; 200 grams of
   uranium-233; 350 grams of uranium-235, or combinations thereof. [Source: SECY-02-0093,
   dated May 31, 2002, for the Commissioners from W. Travers, Executive Director for Operations]

   Foreign obligations – Requirements in bilateral and multilateral agreements that the U.S.
   Government track the amounts, locations, and uses of imported special nuclear material,
   and periodically reconcile records with the country of origin. [Source: absent an NRC regulatory
   definition, OIG relied on a DOE/State Department document for this language.]

   Reporting requirements required under bilateral and multilateral agreements are referred
   to as “foreign obligations” in this report.

   Fuel cycle facility - A facility involved in the processing and fabrication of uranium ore
   into reactor fuel. [Source: NUREG-1350, Volume 14, Information Digest, 2002 Edition]

   Material control and accounting – Activities carried out [by licensees] to establish the
   quantities of nuclear material, including “special nuclear material,” present within defined
   environments and the changes in those quantities taking place within defined periods of
   times. MC&A programs must ensure that all nuclear materials are accounted for and that
   unauthorized acts are detected. [Source: absent an NRC regulatory definition of MC&A, OIG used
   International Atomic Energy Agency and DOE documents for this definition].

   Source material – Uranium or thorium or any combination thereof, in any physical or
   chemical form; or ores that contain by weight 0.05 percent or more of (1) uranium, (2)
   thorium, or (3) or any combination thereof. Source material includes depleted uranium and
   natural uranium, but not “special nuclear material.” [Source: Title 10 CFR Part 40.4]

   Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes
   uranium-233 or uranium-235, and any other material which the Commission, pursuant to
   the provisions of Section 51 of the Atomic Energy Act of 1954, as amended, determines to
   be special nuclear material, but does not include source material; or any material artificially
   enriched by any of the foregoing, but does not include source material. [Source: Title 10 CFR
   Part 74.4]

   Practical uses of SNM include (1) fuel for nuclear reactors; (2) industrial, academic, and
   medical research and testing; and (3) the manufacture of industrial gauging devices
   (sealed sources).


                                                   vii
           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




              viii
                                                           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
    GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii
    I.   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    III. FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               A. NRC PERFORMS LIMITED INSPECTIONS OF LICENSEES’ MC&A ACTIVITIES . . . . . . . . . 6
               B. NRC CANNOT ASSURE THE RELIABILITY OF THE SNM T RACKING SYSTEM. . . . . . . . . 11
    IV. CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 19
    V. AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


    APPENDICES
    A.         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    B.         NRC MATERIAL INVENTORY REPORTING REQUIREMENTS
               TO NMMSS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
    C.         LETTER FROM NRC OIG TO DOE OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
    D.         AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
    E.         DETAILED OIG ANALYSIS OF AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . 33
           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




               x
                                                      Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


I. BACKGROUND

         AUTHORIZATIONS AND RESPONSIBILITIES

                  The U.S. Nuclear Regulatory Commission (NRC) is authorized, under the Atomic
                  Energy Act of 1954, as amended, and the Energy Reorganization Act of 1974, to
                  (1) grant licenses for the possession and use of special nuclear materials (SNM),
                  source material, or byproduct material, and (2) establish regulations to govern the
                  possession and use of those materials.

                  Approximately 21,000 licenses (5,000 administered by NRC and 16,000
                  administered by 32 Agreement States1) are issued for medical, academic,
                  industrial, and general uses of nuclear materials. Additionally, more than 1,000 of
                  the NRC and Agreement State licensees are authorized to possess SNM and are
                  primarily responsible for ensuring the safe and secure use of nuclear materials.

                  NRC is responsible for developing and implementing rules and regulations that
                  govern licensed nuclear activities and for enforcing those regulations and license
                  conditions. Additionally, Agreement State rules pertaining to SNM require
                  compatibility with NRC rules. NRC maintains an oversight function for determining
                  the adequacy and compatibility of Agreement State programs.

                  Under the Atomic Energy Act and the Commission’s regulations, NRC licensees
                  must allow agency representatives to inspect their controls and accounting for
                  SNM and source material, as well as the materials, premises, and facilities where
                  the material is used or stored. Because NRC retains authority over several
                  aspects of materials control and accounting (MC&A) in Agreement States (e.g.,
                  transfer records, reports of theft, import/export activities), certain NRC inspection
                  authorities also apply to Agreement State licensees.

         SCOPE OF MC&A PROGRAMS

                  NRC requires that nuclear material license holders establish and implement
                  activities and procedures designed to control and account for the SNM in their
                  possession. Some licensees (e.g., owners of fuel cycle facilities, power reactors,
                  and non-power reactors) are required to have extensive material control and
                  accounting programs as a condition of license; others are not.




         1
          An Agreement State is any State that has signed as agreement with the NRC allowing the State to regulate the
use of radioactive materials (except at Federal agencies, commercial nuclear power plants, and those authorized to
possess a critical mass of SNM) within that State. Since NRC regulations on tritium, source and SNM transfer reporting
apply directly to Agreement State licensees, references to “licensees” in this paper refer to NRC and Agreement State
licensees.

                                                          1
                                                       Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



                  However, all license applicants2, including those requesting authorization to
                  possess small quantities of SNM (such as that in sealed sources) must develop,
                  document, and implement plans and activities that demonstrate a commitment to
                  accurately account for, and control radioactive materials. Therefore, for the
                  purposes of this report, references to MC&A (programs and inspections) are not
                  limited to programs required under 10 CFR Part 74, but incorporate the activities
                  required of all licensees to properly control and account for SNM in their
                  possession.

         MC&A PROGRAM ELEMENTS

                  NRC’s requirements of licensee MC&A activities, and inspections of those
                  activities, vary depending on the type, quantity, and use of SNM. According to
                  NRC managers, the scope of an MC&A program and the elements applied should
                  be commensurate with the risk and should include, as appropriate, the following
                  elements to help ensure safe use and protection of SNM:

                  •        systems of measurements for: determining quantities of nuclear materials
                           received, produced, shipped, and in inventory; and, for estimating
                           measurement uncertainties and controlling the quality (precision and
                           accuracy) of measurements;

                  •        written procedures for:
                           <       identifying and evaluating shipper-receiver differences
                           <       taking physical inventory
                           <       item and process monitoring
                           <       establishing material balance areas and controlling access to
                                   materials
                           <       resolving indicators of loss, theft, or diversion
                           <       calculating the Standard Error of Inventory Difference
                           <       assuring that personnel are trained and qualified in MC&A;

                  •        a system of records for SNM receipts, transfers, and disposal, e.g., the
                           Nuclear Materials Management and Safeguards System (NMMSS), and
                           internal transfers; and

                  •        reports of loss or theft of SNM, inventory differences exceeding specified
                           limits, and SNM Physical Inventory Summary Reports (Form NRC-327).


         2
          Title 10, Code of Federal Regulations (10 CFR) Part 20, Standards for Protection Against Radiation; Part 40,
Domestic Licensing of Source Material; Part 70, Domestic Licensing of Special Nuclear Material; Part 74, Material
Control and Accounting of Special Nuclear Material; Part 75, Safeguards on Nuclear Material - Implementation of
US/IAEA Agreement; Part 76, Certification of Gaseous Diffusion Plants; and Part 150, Exemptions and Continued
Regulatory Authority in Agreement States and in Offshore Waters Under Section 274.

                                                           2
                                    Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



NRC’S MC&A INSPECTION PROGRAM

      As stated above, NRC requires licensees to properly control and account for the
      SNM in their possession. According to NRC, the agency has moved towards risk-
      informing its regulatory oversight of licensees in recent years. Consequently, NRC
      has applied a risk-informed approach to its MC&A inspection program. Inspection
      effort is determined by the types and quantities of SNM licensees are authorized to
      possess, and the risks associated with varying facility operations. For instance,
      activities and processes involving categories of SNM of increasing strategic
      significance should receive greater inspection effort.

      NRC’s MC&A inspection program is designed, in part, to:

      ‘      ensure that licensees implement, and continue to maintain, adequate and
             effective programs to sufficiently control and account for the SNM in order
             to prevent and detect loss, theft, or diversion;

      ‘      ensure that licensees’ MC&A systems trigger timely detection, response,
             and recovery operations if loss, theft, or diversion occurs;

      ‘      ensure that licensees’ MC&A systems, particularly their dominant
             safeguards risk-significant controls, perform adequately and are capable of
             resolving detected anomalies, whether caused by system malfunctions,
             human errors, or adversarial actions; and

      ‘      prevent a weakening of licensees’ MC&A systems.

NMMSS REPORTING REQUIREMENTS

      NMMSS is a centralized computer database managed by the U.S. Department of
      Energy (DOE) and jointly used with NRC for tracking certain private- and
      Government-owned nuclear materials. NMMSS is considered the official national
      accounting system for SNM inventories. NRC requires that licensees, as part of
      their MC&A programs, report certain types of information to NMMSS. Out of the
      21,000 material licensees referenced above, about 1,000, most of which possess
      SNM, must report to NMMSS by means of:

      •      Nuclear Material Transaction Reports when transferring, receiving, or
             adjusting their inventories for certain amounts and types of nuclear
             materials;

      •      Material Balance Reports, when authorized to possess a critical mass of
             material; and/or



                                       3
                                                     Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



                 •        Yearly inventory statements when they possess certain types and amounts
                          of foreign origin source material.

                 Appendix B provides specific details regarding these reporting requirements.

        NRC/DOE INTERAGENCY AGREEMENT

                 DOE has historically provided NRC with material control and accounting support
                 through NMMSS. NMMSS contains active inventory records for about 1,000
                 licensees, both NRC and Agreement States, and 100 DOE facilities. Since 1975,
                 NRC has reimbursed DOE for at least 30 percent of the annual cost of NMMSS,
                 which currently costs NRC about $1.5 million per year. In addition, NRC paid DOE
                 $700,000 during FY 2001 and FY 2002 to support a NMMSS upgrade.

                 NRC’s use of NMMSS is governed by a 1979 programmatic agreement between
                 NRC and DOE. This agreement established the management principles to be
                 followed in the development and operation of NMMSS. Internal implementation of
                 the agreement is guided by Management Directive and Handbook (MD) 11.7, NRC
                 Procedures for Placement and Monitoring of Work With the U.S. Department of
                 Energy (DOE). This management directive specifies the policies and procedures
                 intended to ensure that NRC effectively manages agency work placed with DOE.

        US/IAEA AGREEMENT3

                 In 1980, the U.S. Government agreed to apply International Atomic Energy Agency
                 (IAEA) safeguards standards to all SNM held by domestic installations, excluding
                 facilities associated with direct national security significant activities. As part of the
                 agreement, the U.S. Government committed to a national system of accounting to
                 formally track certain nuclear materials. Although the U.S. Government had
                 already established NMMSS prior to 1980, in promulgating 10 CFR Part 75,
                 Safeguards on Nuclear Material - Implementation of US/IAEA Agreement, NRC
                 officially recognized NMMSS as the national system of accounting to which NRC’s
                 and Agreement States’ licensees must report.

        NRC OFFICE RESPONSIBILITIES

                 In April 2002, NRC’s Office of Nuclear Security and Incident Response became
                 responsible for overseeing NRC’s interests in NMMSS, as well as for regulatory
                 review of all MC&A programs and licensees’ requests for changes in those
                 programs.


        3
          Agreement Between the United States of America and the International Atomic Energy Agency for the
Application of Safeguards in the United States, proclaimed by the U.S. President, December 31, 1980.

                                                        4
                                                 Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



               The Office of Nuclear Reactor Regulation (NRR) is responsible, in part, for the
               policy and overall program management for inspections at commercial power
               reactors. NRR is also responsible for policy and program management, security
               and MC&A regulation, and inspections at research and test (non-power) reactors.

               The Office of Nuclear Material Safety and Safeguards, formerly responsible for
               NMMSS oversight, is responsible for conducting MC&A inspections for fuel cycle
               facilities and providing guidance to regional offices for materials inspection
               activities.

               NRC’s four regional offices are responsible for implementing the inspection
               program at commercial power reactors and some materials facilities.

        CONGRESSIONAL INTEREST

               Subsequent to the events of September 11, 2001, members of Congress conveyed
               concerns about policies and procedures used to account for, and secure, nuclear
               materials. In a December 2001 letter to NRC, Congressman Edward J. Markey
               expressed concerns associated with recent terrorist threats. In particular, the
               Congressman noted that nuclear materials may be used to develop devices that
               could be used to (1) contaminate critical infrastructure systems, (2) disrupt our
               Nation’s financial markets, (3) impede normal economic activity, or (4) paralyze
               Government functions.4 Also in December 2001, Congressmen W.J. Tauzin and
               John D. Dingell sent a letter to NRC’s Chairman expressing concerns about
               potential weaknesses with respect to the security of radioactive materials. The
               Congressmen’s letter also discussed the need for inspections of materials
               licensees’ premises.5


II. PURPOSE

               The Office of the Inspector General (OIG) conducted this audit to determine
               whether NRC adequately ensures its licensees control and account for special
               nuclear material.

               Appendix A provides a more detailed description of the audit’s scope and
               methodology.




        4
        Letter from Congressman Edward J. Markey to Chairman Richard Meserve dated December 4, 2001.

        5
        Letter from Congressmen W.J. Tauzin and John Dingell to Chairman Richard Meserve dated December 11,
2001.

                                                     5
                                          Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


III. FINDINGS

           The NRC staff believes it has adequately implemented MC&A oversight programs
           on a risk-informed basis. This approach results in certain materials licensees (i.e.,
           fuel cycle facilities and non-power reactors) receiving routine MC&A inspections.
           Yet, other licensees (e.g., commercial power reactors and small quantity holders)
           receive minimal to no inspections of their MC&A activities. Additionally, NRC
           depends on licensees following through on their commitments to comply with
           regulatory reporting requirements, and relies on licensees’ data as the “official”
           record of the amounts, types, and locations of SNM without periodically validating
           the accuracy of the data.

           Today’s heightened sensitivity to the control of SNM warrants NRC’s serious
           attention to its licensees’ material control and accounting activities. However,
           NRC’s current levels of oversight of licensees’ MC&A activities do not provide
           adequate assurance that all licensees properly control and account for SNM.
           Specifically, NRC —

           A.     performs limited inspections of licensees’ MC&A activities, and
           B.     cannot assure the reliability of the SNM tracking system.

           Without adequate inspections to verify licensees’ commitments to MC&A, or a
           reliable SNM tracking system, NRC has no independent means for determining if
           SNM was lost, stolen, or otherwise diverted while in a licensee’s possession.
           Despite not being a regulatory requirement, having this independent ability would
           add value to the agency’s oversight abilities.


      A. NRC PERFORMS LIMITED INSPECTIONS OF LICENSEES’ MC&A ACTIVITIES

           Licensees’ control and accounting of SNM is a fundamentally important safeguards
           measure. Consistent with its position to risk-inform the inspection program, NRC
           performs limited routine inspections of licensees’ MC&A activities.
           Staff consider that aspects of NRC’s regulatory framework, other than inspections,
           make it unlikely that SNM would be lost, stolen, or diverted. However, recently
           reported events, such as missing fuel rods at a nuclear power plant, raise serious
           questions about these assumptions. Without adequate and routine inspections of
           licensees’ MC&A activities, including periodic physical verification of licensees’
           inventories, NRC cannot reasonably ensure that its licensees are effectively
           controlling, and accurately accounting for, SNM in their possession.




                                             6
                                                       Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



                  Background

                  According to a General Accounting Office report, control and accounting of SNM is
                  important in order to (1) ensure that nuclear materials are used only for peaceful
                  purposes; (2) protect nuclear materials from loss, theft, or other diversion; (3)
                  comply with international treaty obligations; and (4) provide data to policymakers
                  and other government officials.6 In addition, the US/IAEA Agreement states that
                  “material accountancy shall be used as a safeguards measure of fundamental
                  importance.” Further, NRC’s current Commission states, “. . . proper material
                  control and accounting (MC&A) is an important component of our safety and
                  safeguards and security programs. . . .” Applications for materials licenses must
                  include, for NRC’s approval, a licensee’s multi-element plan to control and account
                  for material in its possession.

                  The approximately 1,000 licensees reporting to NMMSS, most of which possess
                  special nuclear materials, include:

                  ‚        7 major fuel cycle facilities,
                  ‚        50 research and test (non-power reactor) facilities,
                  ‚        103 operating commercial nuclear power reactors, as well as,
                  ‚        800+ other licensees authorized to possess small quantities7 of SNM.

                  MC&A Inspections

                  Agency reorganizations since the late 1980s have resulted in a reduction of agency
                  MC&A experts and, over the last decade, NRC’s focus on regulatory oversight of
                  licensees’ MC&A programs has dramatically declined. As a result, NRC presently
                  conducts limited routine inspections to verify that licensees carry out their MC&A
                  obligations, including the accurate reporting of transactions to NRC and NMMSS.
                  Specifically, in recent years, NRC only conducts routine inspections of licensees’
                  MC&A programs at fuel cycle facilities and some non-power reactor facilities.

                  Currently, MC&A inspections vary by type of facility. The agency’s seven licensed
                  major fuel cycle facilities routinely receive MC&A inspections, as scheduled, and
                  36 of the agency’s 50 licensed research and test reactors received MC&A
                  inspections between CY 2000-2002. Yet, NRC conducts no routine MC&A
                  inspections at 103 operating commercial nuclear power reactor sites nor at more
                  than 800 other material licensees authorized to possess SNM.


         6
           GAO Report B-259533, titled Nuclear Nonproliferation: U.S. International Nuclear Materials Tracking
Capabilities Are Limited, dated December 27, 1994.

         7
          Small quantities of SNM means quantities of less than 1 gram of contained U-233, U-235, or plutonium, or less
than 1,000 kilograms of uranium or thorium of foreign origin. (See Appendix B for details.)

                                                           7
                               Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



Furthermore, where conducted, MC&A inspections include limited physical
verification of SNM inventories and the accuracy of licensees’ records, and no
validation of data reported to NMMSS.

       Fuel Cycle Facilities

While NRC routinely performs annual MC&A inspections at each major fuel cycle
facility, NRC inspectors said that current resources are not adequate to complete
all parts of the MC&A inspection program. In fact, in FY 2002, NRC allocated only
1.5 full-time equivalents (FTE) dedicated as fuel cycle MC&A inspectors. Those
inspectors said they must prioritize which portions of the MC&A inspection
procedure to perform. As a result, these inspections include limited physical
verification of licensees’ inventories, some validation of the data in licensees’
records, and no validation of inventory data reported by licensees to NMMSS.

       Research and Test Reactors

In contrast to the inspectors dedicated to MC&A in the fuel cycle area, research
and test reactor inspectors conduct very limited reviews of licensees’ MC&A
programs as part of broad-based facility inspections. According to these
inspectors, agency MC&A experts used to spend a couple of days conducting
dedicated inspections of licensees’ MC&A activities. This responsibility eventually
shifted to the research and test reactor inspectors, who said that MC&A is not their
specialty. These inspectors do some physical verification of fuel inventories and
do ensure licensees are keeping records and reporting to NMMSS. However, they
do not validate licensees’ calculations, nor the data reported by the licensees to
NMMSS.

       Operating Nuclear Power Reactors

Historically, the agency conducted routine MC&A inspections at commercial
nuclear power reactors. However, in 1988, NRC discontinued routine MC&A
inspections at these facilities after an NRC task force determined that the issues
covered under the MC&A program were not risk-significant. Currently, MC&A
inspections occur only when authorized in response to specific plant events.

       Small Quantity SNM Licensees

Based on discussions with agency staff, OIG concluded that NRC does not
conduct MC&A inspections of licensees possessing small quantities of SNM.
According to some NRC staff, no one in the agency is conducting these MC&A
inspections. However, others believe these types of inspections are conducted but
they expressed confusion over which organization(s) is actually conducting such



                                  8
                                Audit of NRC’s Regulatory Oversight of Special Nuclear Materials

inspections. NRC management could not confirm whether these inspections are
conducted.

Staff Assessment of Current Inspection Programs

NRC staff are confident that the agency’s regulatory requirements and existing
inspection programs adequately ensure that its licensees are effectively
safeguarding SNM. Examples of these activities cited by NRC staff include:

‚       licensing review and approval of submitted Fundamental Nuclear Material
        Control Plans, licensee implementation of these plans, and NRC’s
        verification of that implementation;

‚       requirements that licensees, as a part of their MC&A programs, submit
        Material Balance Reports and Nuclear Material Transaction Reports to
        NMMSS, where applicable;

‚       inspections of radiation protection programs and internal physical security
        areas; and

‚       requirements for extensive physical security barriers at power plants.

        Oversight of Fuel Cycle Facilities

NRC staff are confident in the oversight activities performed at fuel cycle facilities.
According to NRC staff, fuel cycle inspectors verify the accuracy of information
reported to NRC on licensees’ Physical Inventory Summary Reports
and the facility records used to produce the reports. Staff said this type of review
would effectively identify SNM inventory discrepancies.

However, after discussions with NRC inspectors, it is not clear the extent to which
Physical Inventory Summary Reports are routinely validated. In addition, these
reports are not submitted to, or reconciled with, NMMSS.

        Self-Protecting Material at Reactors

According to NRC managers, most special nuclear material at power reactors is
self-protecting from a health and safety point of view. The agency believes that
this self-protecting aspect (i.e., handling highly radioactive reactor spent fuel is
extremely dangerous) provides reasonable assurance that the material is
controlled. Staff also believe that the risk of undetected loss, theft, or diversion of
SNM at power reactor sites is low. Consequently, NRC trusts power reactor
licensees to implement their MC&A obligations effectively, including the accurate
reporting of SNM transaction and inventory information to NMMSS.



                                   9
                                                      Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



                  However, a recent OIG Event Inquiry relayed details about material unaccounted
                  for by the Millstone Nuclear Power Station licensee.8 In addition, although power
                  plant licensees are required to annually reconcile their inventory data to NMMSS
                  records, inconsistencies existed between this licensee’s SNM inventory amount
                  and that reflected in NMMSS.

                           Risk Significance of Possessing Small Quantities of SNM

                  Until recently, staff also felt confident that NRC’s current level of oversight of the
                  more than 800 licensees authorized to possess small quantities of SNM ensured
                  adequate control and accounting for SNM. NRC staff believed that the types and
                  quantities possessed are not risk-significant in that these materials were not likely
                  to be used to cause mass destruction or loss of life.

                  Today, some NRC staff and OIG believe the threat has changed and terrorists
                  could use small quantities of SNM in a device designed to contaminate critical
                  infrastructure (e.g., the water supply, roads, highways, public and private buildings)
                  and cause the general public to panic.

                  Planned Reevaluation of MC&A Oversight

                  NRC’s Commission states that MC&A is an important component of agency
                  programs designed to ensure the safe use and security of SNM. In light of
                  heightened worldwide sensitivity to the potential threat of nuclear materials being
                  sought for malicious intent, NRC’s reliance on its licensees to comply with MC&A
                  requirements, without physical verification, warrants reevaluation. In fact, NRC
                  plans to reevaluate the vulnerabilities of its oversight of MC&A programs in FY
                  2003 and FY 2004. However, NRC’s current planned reevaluation efforts do not
                  include instituting routine MC&A inspections. According to NRC managers, a final
                  decision on reinstating routine inspections, where not presently performed, awaits
                  the result of the staff’s programmatic review of MC&A vulnerabilities.

                  Summary

                  Staff are confident that aspects of NRC’s regulatory framework, e.g., physical
                  security requirements and approval of licensees’ material control plans, make it
                  unlikely that SNM would be lost, stolen, or diverted from licensees’ facilities.
                  Consequently, consistent with the agency’s position to risk-inform its inspection
                  program, NRC conducts limited routine MC&A inspections.




         8
           NRC’s Regulatory Oversight Over The Control of Special Nuclear Material at Millstone Unit 1, NRC OIG Event
Inquiry, Case No. 01-03S, October 31, 2002.

                                                         10
                                   Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



     While it is important to risk inform regulatory oversight to minimize the resource
     burden on licensees and the impact on agency resources, NRC must balance
     that goal with ensuring and maintaining the public health and safety. In light of the
     events of September 11, 2001, OIG believes that NRC’s position to selectively
     verify licensees’ compliance with MC&A requirements is no longer sufficient to
     ensure public confidence in, and respect for, the agency. Without adequate,
     routine inspections of licensees’ MC&A activities, such as periodic physical
     verifications of inventories and validation of the accuracy of reports to NMMSS,
     NRC cannot reasonably ensure that licensees can detect loss, theft, or diversion of
     SNM in a timely manner.

     RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

     1.     Conduct periodic inspections to verify that material licensees comply with
            MC&A requirements, including, but not limited to, visual inspections of
            licensees’ SNM inventories and validation of report information;

     2.     Report to the Commission annually on the effectiveness of NRC’s
            inspection program for ensuring that licensees satisfactorily carry out their
            MC&A responsibilities.

     AGENCY COMMENT AND OIG RESPONSE

     In its comments responding to the final draft report (see Appendix D), the agency
     states that “. . . it has adequately implemented an MC&A oversight program
     utilizing a risk-informed approach.” Although OIG requested documentation for the
     basis of this risk-informed approach, the agency was unable to provide a
     documented basis or framework used to risk inform their oversight of MC&A
     activities for all types of materials licensees. Accordingly, OIG recommends the
     following:

     3.     Document the basis of the approach used to risk inform NRC’s oversight of
            MC&A activities for all types of materials licensees.

B. NRC CANNOT ASSURE THE RELIABILITY OF THE SNM TRACKING SYSTEM

     NRC cannot assure the reliability of the national system used for tracking the
     types, quantities, and locations of the SNM it regulates primarily because
     management has not resolved longstanding problems with NMMSS operations and
     data, such as:

     •      the reliability of NMMSS data (e.g., completeness and accuracy), and

                                      11
                                                   Audit of NRC’s Regulatory Oversight of Special Nuclear Materials

                 •       interactions with DOE on NMMSS-related matters.

                 As a result, NRC cannot ensure the accuracy and, therefore, the reliability of
                 NMMSS data. Specifically, NRC cannot know in a timely manner, the amounts,
                 locations, and types of SNM held by its licensees.

                 Background

                 NRC established requirements for its licensees to report information to NMMSS as
                 part of licensees’ MC&A programs. According to 10 CFR 70.9, information
                 required of licensees by the Commission’s regulations, or license conditions, “. . .
                 shall be complete and accurate in all material respects.”

                 Reliability of NMMSS Data

                 Problems with the reliability of NMMSS data have existed for decades. As early as
                 1979, NRC managers reported that agency efforts to rely on NMMSS, in part, for
                 reporting inventory differences was non-productive due to apparent mistakes and
                 errors in NMMSS data. At the time, the agency hired a contractor to “ . . . identify,
                 determine the reasons for, and provide the logic and procedures for eliminating any
                 inconsistencies existing.” The NRC contractor identified inconsistencies such as
                 entries to NMMSS with no records to justify the entries and other data that were
                 never entered. Based on a review of agency records, OIG could not determine if
                 NRC took any actions to correct the deficiencies identified by the NRC contractor.

                 In 1997, an NRC task force identified errors in NMMSS. In its report, the task force
                 recommended that the agency conduct an annual audit that addressed, among
                 other things, the overall operations of NMMSS. In response, agency technical staff
                 completed only one review and issued a report in October 1999. In that report, the
                 NRC staff concluded that the NMMSS contractor had procedural methodologies in
                 place that ensured effective protection and processing of licensee data submittals,
                 but that human errors contributed to inaccurate NMMSS reports.

                 A DOE/IG report,9 issued in October 2001, stated that DOE could not fully account
                 for nuclear materials loaned or leased to NRC and Agreement State licensees
                 because of discrepancies in NMMSS. Additionally, prior to issuance of that report,
                 the current NMMSS contractor indicated that the historical data remained
                 unreliable. This was due to the lack of reconciliations for licensees possessing
                 small quantities of SNM and foreign balances, and because initial inventory
                 balances were not validated.




        9
            DOE/IG, Accounting for Government-Owned Nuclear Materials Provided to Non-Department Domestic
Facilities, October 2001.

                                                      12
                                                        Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



                            Completeness of NMMSS Data

                  According to the NMMSS contractor, NMMSS does not contain a complete history
                  of licensees’ transactions. In fact, NRC regulations require neither annual Material
                  Balance Reports nor Nuclear Material Transaction Reports for licensees
                  possessing small quantities of SNM, unless the transaction involves more than 1
                  gram of SNM. As a result, over time, the integrity of NMMSS data has
                  deteriorated. By default, for licensees possessing small quantities of SNM,
                  NMMSS adds up amounts on transaction reports submitted by licensees to
                  determine inventory balances. Inventory for those facilities are calculated on
                  transaction data alone and, because these licensees do not submit Material
                  Balance Reports, NMMSS records cannot be reconciled to ensure accuracy.
                  Without periodic reconciliations at these facilities, NMMSS users, such as NRC
                  and DOE, would not know whether NMMSS data is correct.

                  In addition, NMMSS is not currently designed to fully capture foreign obligation10
                  information from licensees. Therefore, NRC cannot be certain that NMMSS data
                  used by DOE and the Department of State in reporting on foreign obligations fully
                  accounts for SNM held in the U.S. According to agency-provided documents,
                  system improvements to capture foreign obligations is progressing toward a
                  proposed implementation date of October 1, 2003.

                            Verification of Licensees’ Reports to NMMSS

                  Discrepancies in the NMMSS database over the years have been exacerbated by
                  the lack of NRC verification of licensees’ reports to NMMSS. According to NRC
                  documents, staff suspects that the vast majority of the NMMSS discrepancies are
                  the results of improper transaction reporting by licensees and/or data entry errors
                  by the NMMSS contractor. Even so, NRC does not verify the accuracy of the data
                  submitted by its licensees to NMMSS.

                  An NRC staff member responsible for overseeing NRC’s interests in the NMMSS
                  project, and DOE’s own NMMSS contractor, have each said that one of the many
                  reasons for NMMSS discrepancies was that NRC never validated or verified initial
                  inventories reported to NMMSS by licensees. As a result, some material balances
                  in NMMSS have been calculated against incorrect initial balances for decades.




         10
            The U.S. Government maintains bilateral and multilateral agreements with foreign nations. Some of these
agreements require the U.S. Government to track the amounts, locations, and uses of imported SNM, and to periodically
reconcile records with the country of origin. Reporting requirements required under bilateral and multilateral agreements
are referred to as “foreign obligations.”

                                                           13
                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



The agency is planning corrective actions to address errors identified in the
October 2001 DOE/IG report. However, the corrective actions will not sufficiently
prevent a recurrence of inventory discrepancies because the plans do not include
performing routine verification of information reported by licensees to NMMSS.

       Use of NMMSS to Support Agency Activities

Problems with report preparation and data accuracy have resulted in a database
that is minimally used. Staff have no confidence in NMMSS data and reports are
untimely and not user-friendly. Consequently, agency inspectors do not use
NMMSS data to support their inspection activities. Only one MC&A inspector
currently uses NMMSS data and that is for reference purposes, not inspection
support.

OIG attempted to determine the amounts and types of SNM and their distribution
by types of licenses through available NMMSS reports, but could not do so in a
timely manner because the agency does not have this information readily available.
In fact, the agency does not receive this information on any regular basis.
According to NRC staff, a request for this NMMSS information would have to be
submitted to DOE. As a result, it would take the agency 2 to 3 days to acquire the
report from NMMSS, dependent upon DOE’s assigning it high enough priority.

In summary, although licensees are required to report information to NMMSS as
one element of their MC&A programs, NRC does not verify the accuracy of the
information reported. Additionally, the agency does not require licensees to report
transactions and transfers of less than a gram of SNM to NMMSS. As a result,
NRC does not have an accurate, complete source of information readily available
to identify the types and quantities of SNM that all its licensees possess.

NRC depends on licensees’ data as the “official” record of the amounts, types, and
locations of SNM, primarily because of the unreliability of NMMSS data. In fact,
NRC staff said they would call the licensees directly if they needed to quickly know
inventory balances and locations. Therefore, despite subscribing to the national
database for SNM, NRC may not be able to determine if a discrepancy, such as
missing or diverted SNM, exists in a timely manner.

NRC/DOE NMMSS Interaction

The 1979 NRC/DOE programmatic agreement for NMMSS established the
guidelines for interaction between the agencies. However, the terms of the
agreement have been generally ignored, perpetuating the problems with NMMSS.
As a result, despite paying DOE about $1.5 million annually for the




                                 14
                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



maintenance and use of the database, DOE has not satisfactorily represented
NRC’s interests in NMMSS. For example, it took numerous unsuccessful attempts,
over time, before DOE finally agreed to include improved capability for tracking
required foreign obligation information in the planned NMMSS upgrade efforts.
Although the time line for implementing the full computer platform upgrade has
stalled, the agency projects an October 2003 implementation date for
improvements in foreign obligation tracking.

Additionally, DOE initiated adjustments to NRC licensees’ NMMSS accounts to
resolve negative balances of SNM without prior NRC knowledge or approval. NRC
knew that DOE was trying to resolve balance discrepancies of SNM, but did not
intervene until after OIG brought this matter to management’s attention (see
Appendix C). Subsequently, NRC issued a letter to DOE noting objections to
DOE’s actions and directing DOE not to change licensees’ data in NMMSS without
NRC’s prior approval.

NRC is also aware that statistics regarding the inventory balances for estimated
amounts of plutonium, one type of SNM, were calculated differently by NRC and
DOE. A recent State Department report to IAEA identified the total metric tons of
plutonium contained in “spent civil reactor fuel” at U.S. sites. The amount reported
by DOE to the State Department was calculated using NMMSS data.

Yet, an NRC manager told OIG that the total reported amount of plutonium should
have been approximately 21 percent higher, based on the same NMMSS data.
However, because DOE never contacted NRC to discuss any problems with the
NMMSS values, NRC took no action to resolve this discrepancy regarding NRC
licensees’ holdings.

NRC’s Management of NMMSS Activities

Insufficient resources for overseeing NMMSS resulted in ineffective monitoring of
NMMSS operations and contract activities. According to NRC staff, resources
dedicated to NMMSS project management was once the responsibility of a section
consisting of five to six people. In FY 2002, NRC allocated only .3 FTE to monitor
all of the NMMSS activities. Although actual monitoring efforts in FY 2002
exceeded 1.0 FTE, oversight of the project remained ineffective.

According to NRC, 1.0 FTE was allocated to support NMMSS activities in FY 2003.
However, considering planned actions to correct NMMSS discrepancies, and
ongoing upgrade activities, the increased resources will not be adequate to ensure
effective oversight.




                                 15
                             Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



       Procedures for Monitoring Work with DOE

To effectively monitor NMMSS operations and contract activities, NRC
management needs to ensure that staff follow established guidance. MD 11.7 was
developed to provide the guidance for oversight of NRC work placed at DOE
laboratories. Specifically, the guidance was developed to ensure (1) that
procedures for negotiating and managing agreements with DOE are consistent
with sound business practices and contracting principles; (2) the uniform
application of an agency-wide standard of contract management for projects
placed with DOE; and (3) a framework exists for program management control,
administration, monitoring, and closeout of projects placed with DOE. However,
NRC managers and staff overseeing NMMSS operations and contract activities:

‚      neither updated nor strengthened the 1979 NMMSS programmatic
       agreement with DOE designed to establish mutually acceptable managerial
       principles;

‚      produced only unsigned, non-executable versions of major contract
       documents required to be maintained in files per MD 11.7 (e.g., the specific
       programmatic agreement between NRC and DOE for the maintenance and
       operation of NMMSS; Form 173, Standard Order for DOE Work);

‚      accepted broadly stated Project and Cost Proposals from DOE;

‚      historically accepted untimely Monthly Letter Status Reports (MLSR)
       prepared by DOE’s contractor, which consistently lacked sufficient details
       (only in the recent months has DOE complied with NRC requests to submit
       timely MLSRs); and

‚      did not, until recently, exercise non-performance remedies available under
       MD 11.7, such as withholding payment or stopping work, despite repeated
       documentation to DOE of unsatisfactory contractor performance.

Furthermore, in FY 1999, due to NRC’s inattention, DOE redirected a portion of the
agency’s $1.5 million NMMSS maintenance and operations allocation to initiate a
major system upgrade without NRC’s prior knowledge and concurrence. In OIG’s
opinion, this constituted an unauthorized obligation to the agency. In fact, DOE
acknowledged in writing its failure to consult NRC and, as a result, discounted
NRC’s portion of the upgrade cost from $806,000 to $700,000. Subsequently,
between FY 2001 and FY 2002, NRC paid this amount toward the NMMSS
upgrade. Also, while NRC management eventually assigned an NRC technical
monitor to represent NRC’s interests in the upgrade, that monitor does not possess
the computer background necessary for identifying and resolving emerging
problems with the upgrade. To date, the contractor has not

                                16
                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



successfully developed and completed that upgrade. In fact, NRC and DOE are
reevaluating the upgrade specifications to salvage some value from their expended
resources.

Agency Planned Corrective Actions

In May 2002, NRC management proposed to the Commission a plan to resolve
NMMSS discrepancies identified in the referenced DOE/IG report. As of May 1,
2003, the agency had not yet implemented the corrective action plan. Although the
proposed plan would involve extensive agency resources, none of the proposed
actions address weaknesses in the NMMSS arrangement (i.e., the NRC/DOE
agreement for the development and operation of NMMSS) or NRC management’s
oversight.

Summary

The NMMSS database is unreliable as a tracking system for SNM because it does
not contain complete and accurate information. As a result, NRC cannot know,
with reasonable certainty and in a timely manner, the amounts, types, and
locations of the SNM it regulates. NRC’s inattention to longstanding problems with
NMMSS operations and data resulted in NRC's over reliance on DOE to represent
the agency's interests in the national database. However, in a number of
instances, DOE has not satisfactorily represented NRC's interests in NMMSS.

In addition, NMMSS is not designed to fully capture foreign obligation information.
Since international reports are based on NMMSS data, the U.S. Government
cannot be sure that those reports are complete and accurate. Consequently, the
U.S. Government may not fully meet the intent of international agreements in
regards to account balances.

In short, management inattention results in an annual investment of approximately
$1.5 million for an unreliable system that is minimally used to support NRC’s
regulatory activities. OIG believes that the funds used for NRC’s annual
reimbursement to DOE, and the continued FTE support for the NMMSS upgrade
might be more effectively used by NRC to develop and maintain its own database.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

4.     Revise NRC regulations to require licensees authorized to possess SNM,
       and not currently required to do so, to conduct annual inventories and
       submit an annual Material Status Report or Physical Inventory Summary
       Report to NRC;

                                 17
                            Audit of NRC’s Regulatory Oversight of Special Nuclear Materials



5.   Establish an independent NRC system of accounting for SNM possessed
     by NRC and Agreement State licensees and ensure that beginning
     balances are accurate (based on NRC’s physical verification of a statistical
     sample of the location and amounts of SNM held by the licensees or a
     review of a statistical sample of a licensee’s records or some combination
     thereof);

6.   Subsequent to completion of Recommendation 5, withdraw the approximate
     $1.5 million annual reimbursement to DOE for NMMSS and redirect those
     resources to support of the NRC database;

7.   Subsequent to completion of Recommendation 5, dissolve the current
     DOE-NRC Programmatic Agreement for Development and Operation of
     Nuclear Materials Management and Safeguards System (NMMSS) and
     institute a new agreement regarding NRC’s providing DOE with the
     information necessary to satisfy international reporting obligations; and

8.   For any funding from NRC to DOE directed toward meeting the
     international reporting obligations, follow all policies and procedures for
     placement and monitoring of work with DOE as outlined in Management
     Directive and Handbook 11.7.




                               18
                                         Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

    1.     Conduct periodic inspections to verify that material licensees comply with MC&A
           requirements, including, but not limited to, visual inspections of licensees’ SNM
           inventories and validation of report information;

    2.     Report to the Commission annually on the effectiveness of NRC’s inspection
           program for ensuring that licensees satisfactorily carry out their MC&A
           responsibilities;

    3.     Document the basis of the approach used to risk inform NRC’s oversight of MC&A
           activities for all types of materials licensees.

    4.     Revise NRC regulations to require licensees authorized to possess SNM, and not
           currently required to do so, to conduct annual inventories and submit an annual
           Material Status Report or Physical Inventory Summary Report to NRC;

    5.     Establish an independent NRC system of accounting for SNM possessed by NRC
           and Agreement State licensees and ensure that beginning balances are accurate
           based on NRC’s physical verification of a statistical sample of the location and
           amounts of SNM held by the licensees or a review of a statistical sample of a
           licensee’s records or some combination thereof;

    6.     Subsequent to completion of Recommendation 5, withdraw the approximate $1.5
           million annual reimbursement to DOE for NMMSS and redirect those resources to
           support of the NRC licensee database;

    7.     Subsequent to completion of Recommendation 5, dissolve the current DOE-NRC
           Programmatic Agreement for Development and Operation of Nuclear Materials
           Management and Safeguards System (NMMSS) and institute a new agreement
           regarding NRC’s providing DOE with the information necessary to satisfy
           international reporting obligations; and

    8.     For any funding from NRC to DOE directed toward meeting the international
           reporting obligations, follow all policies and procedures for placement and
           monitoring of work with DOE as outlined in Management Directive and Handbook
           11.7.




                                            19
                                       Audit of NRC’s Regulatory Oversight of Special Nuclear Materials


V. AGENCY COMMENTS

        On March 5, 2003, OIG discussed its draft report with agency senior executives.
        Subsequent to that meeting, OIG met with members of the EDO’s staff to address
        issues needing further clarification and/or explanation. On May 14, 2003, the
        Executive Director for Operations provided a formal response to this report in
        which he stated general agreement with many of OIG’s observations and
        recommendations. However, the EDO stated that NRC will defer any actions on
        the recommendations related to the development of an independent accounting
        system for SNM until a study of the issue can be conducted. The EDO’s
        transmittal letter and specific comments on this report are included as Appendix D.
        This final report incorporates revisions made, where appropriate, as a result of the
        subsequent meetings and the agency’s formal written comments. Nonetheless,
        because OIG takes exception to some of NRC comments, a point-by-point analysis
        is presented in Appendix E.

        It should be particularly noted that the agency provided the following comments
        regarding Section III, Findings (see Agency Comment 3, first bullet, in
        Appendix E):

               “The report states that the NRC’s material control and accounting (MC&A)
               inspection program does not adequately ensure licensees properly account
               for and control SNM. This statement is overly broad in that MC&A
               programs are necessarily different for different types of licensees because
               of the variation in risk. The staff believes that it has adequately
               implemented an MC&A oversight program utilizing a risk-informed
               approach. The report should address the adequacy or inadequacy of this
               approach and its impact on the accountability and control of SNM by
               different types of licensees.”

        In response, OIG believes that the report clearly states that MC&A programs, and
        inspections of those programs, differ and that the staff believes the current level of
        oversight is adequate from a risk-informed view. In fact, the staff consistently
        discussed the use of a risk-informed approach in determining who, and what, to
        inspect regarding MC&A. Although OIG requested documentation for the basis of
        this risk-informed approach, the agency was unable to provide a documented basis
        or framework used to risk inform their oversight of MC&A activities for all types of
        materials licensees.

        Consequently, OIG has added an additional recommendation to this final report
        that the agency document the basis for this approach (see Recommendation #3 on
        the Consolidated List of Recommendations).




                                          20
                                      Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                           Appendix A



SCOPE AND METHODOLOGY

        The objective of this audit was to determine whether NRC adequately ensures its
        licensees control and account for special nuclear materials. To accomplish this,
        OIG reviewed NRC regulations and relevant program documentation. Auditors
        also interviewed more than 40 individuals, including staff from the Commissioners’
        offices and Office of the Secretary of the Commission; senior executives and/or
        staff from the Offices of the Executive Director for Operations, Nuclear Materials
        Safety and Safeguards, Nuclear Reactor Regulation, International Programs, and
        Nuclear Security and Incident Response, and regional offices. OIG staff also met
        with NRC inspectors, officials from the Department of Energy, and the Project
        Director at DOE’s NMMSS contractor. Auditors observed an agency MC&A
        specialist conduct an inspection at a fuel facility and interviewed the licensee.

        This audit progressed in two phases. OIG’s initial survey of the MC&A area,
        conducted from December 2001 through March 2002, identified and addressed a
        number of emergent issues, including significant NMMSS activities. In the second
        phase, from September through December 2002, OIG completed its assessment of
        the agency’s oversight of MC&A programs and NMMSS.

        On January 13, 2003, OIG issued an initial discussion draft audit report to NRC’s
        Executive Director for Operations. OIG met with NRC staff on January 17, 2003 to
        discuss their comments on the draft report. The report was revised, where
        appropriate, and reissued on February 26, 2003. At a March 5, 2003 meeting,
        agency senior executives provided informal comments on the revised draft. Based
        on the agency’s request to submit formal comments, OIG issued a final discussion
        draft audit report on March 25, 2003, which included revisions resulting from the
        above-referenced meetings. Subsequent to issuing the final discussion draft audit
        report, staff members from the EDO’s office and OIG met to address issues
        needing further clarification and/or explanation. Additional revisions were made to
        this final audit report, where appropriate, as a result of these meetings and the
        agency’s formal written comments.

        This audit was conducted in accordance with generally accepted Government
        auditing standards and included a review of management controls related to the
        objective of this audit. The major contributors to this report were Russ Irish, Team
        Leader; Catherine Colleli, Senior Management Analyst, and Debra Lipkey, Senior
        Management Analyst.




                                         21
           Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




              22
                                        Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                            Appendix B


NRC MATERIAL INVENTORY REPORTING REQUIREMENTS TO NMMSS

    Nuclear Material Transaction Reports

    #     Each licensee transferring, adjusting, or receiving SNM of any origin in a quantity
          of one gram or more of contained uranium-233, uranium-235, or plutonium must
          submit Nuclear Material Transaction Reports to NMMSS.

    #     Each licensee transferring, adjusting, or receiving 1 kilogram or more of uranium or
          thorium source material of foreign origin must submit Nuclear Material Transaction
          Reports to NMMSS.

    #     For the purposes of this OIG audit report, licensees’ inventory transactions
          involving SNM of any origin in a quantity of less than 1 gram of contained uranium-
          235, uranium-233, or plutonium are referred to as “transactions involving small
          quantities.” Regulations do not require that Nuclear Material Transaction Reports
          be prepared for these transactions.

    Material Balance Reports

    #     Each licensee authorized to possess a critical mass of material is required to
          periodically complete and submit Material Balance Reports to NMMSS.

    #     Licensees authorized to possess at any one time and location, more than 1,000
          kilograms of source material (i.e., uranium or thorium, or any combination thereof)
          must submit a statement of foreign origin source material inventory to NMMSS.

    #     Licensees authorized to possess less than a critical mass and less than 1,000
          kilograms of uranium or thorium of foreign origin are referred to as “authorized to
          possess small quantities.” Regulations do not require Material Balance Reports to
          be prepared by these licensees.




                                           23
            Audit of NRC’s Regulatory Oversight of Special Nuclear Materials




[Page intentionally left blank.]




              24
Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                    Appendix C


                                                w/o enclosures




  25
Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                    Appendix C




  26
                  Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                      Appendix D



AGENCY COMMENTS




                    27
                                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                  Appendix D

NRC STAFF COMMENTS ON OIG’S DRAFT FINAL OIG REPORT: AUDIT OF
 NRC’S REGULATORY OVERSIGHT OF SPECIAL NUCLEAR MATERIALS

1. General

•   Much of the report is devoted to problems with the Nuclear Materials Management and
    Safeguards System (NMMSS), the national system for tracking special nuclear material
    (SNM). While the staff recognizes that the NMMSS may not be a reliable system for licensees
    possessing small quantities of SNM, the emphasis on NMMSS is not commensurate with its
    relative importance in accounting for and controlling SNM. Those licensees who are required
    to report a physical inventory to NMMSS possess over 99% of the SNM. The staff has high
    confidence in the SNM inventories for these licensees

•   Notwithstanding the recent concerns regarding radiological dispersal devices (RDDs), most
    SNM would not be attractive for use in an RDD because of the radiological properties of
    uranium isotopes. The staff intends to use the results of a recently completed report by a joint
    DOE-NRC working group on RDDs to inform the corrective actions it will take to address the
    recommendations in the OIG report.

2. Pages 5-6, under “US/IAEA Agreement”

    The report states that the US/IAEA Agreement and its implementation in accordance with
    10 CFR Part 75, applies to all SNM. However, Section 75.4(k) states that the requirements of
    10 CFR Part 75 only apply to “installations,” as defined in § 75.2(a). Most of the small
    quantity SNM licensees discussed in other parts of the report are not “installations” as defined
    in Part 75. In addition, § 75.3 provides for certain exemptions to these requirements. The 2nd
    line of this paragraph, if worded as “...standards to all SNM held by domestic facilities
    installations, excluding...” would accurately depict the situation.

3. Page 8, Section III, Findings

•   The report states that the NRC’s material control and accounting (MC&A) inspection program
    does not adequately ensure licensees properly account for and control SNM. This statement
    is overly broad in that MC&A programs are necessarily different for different types of licensees
    because of the variation in risk. The staff believes that it has adequately implemented an
    MC&A oversight program utilizing a risk-informed approach. The report should address the
    adequacy or inadequacy of this approach and its impact on the accountability and control of
    SNM by different types of licensees.

•   The report states that without adequate MC&A inspections or a reliable system for tracking
    SNM, the NRC has no independent basis for determining if SNM was lost, stolen or otherwise
    diverted, relying on licensees’ data as the “official” record. The specific responsibility for
    safeguarding nuclear material assigned to the NRC in the Energy Reorganization Act of 1974
    is “monitoring, testing and recommending upgrading of internal accounting systems for special
    nuclear and other nuclear material licensed under the Atomic Energy Act of 1954, as
    amended.” “Internal” in this language refers to the licensees’ systems. Responsibility for
    accounting and control of SNM resides with the licensees. The report should address how

                                                28
                                                Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                    Appendix D

    well the staff is verifying licensees’ execution of their SNM accountability and control
    responsibilities.
•
4. Page 11, under “Research and Test Reactors”

•   The report addresses aspects of what inspectors do at non-power reactors relative to MC&A
    programs. The focus should be on the adequacy or inadequacy of the inspection procedures
    and the basis for this conclusion since the inspectors are following approved inspection
    procedure guidance.

•   Given that NRC’s inspectors do perform some limited validation of calculations using a rule of
    thumb for uranium burnup with megawatt days of burnup, the last sentence should be revised
    to state:

        However, They also do not validate perform limited validation of licensees’
        calculations, nor the. However, the inspectors do not verify that data reported by
        the licensees to NMMSS is accurately kept in the database.

5. Page 19, under “Use of NMMSS to Support Agency Activities”

•   The report states that the NRC relies on licensee inventory data because NMMSS data is
    unreliable. A more accurate rationale would be that the NRC relies on licensee records
    because they are more timely and detailed. For example, information on the quantities of
    SNM at the fuel cycle facilities changes daily. As such, by the time that licensee data gets into
    the NMMSS database, the data can be out of date. Also, the SNM data in NMMSS is highly
    summarized, while the facility has data at a detailed item level. NMMSS was never intended
    to report inventories on a near real-time basis or to track location of SNM within a licensee
    site. Clearly, NMMSS may have reliability problems relative to licensees possessing small
    quantities of SNM. Both the aforementioned report on RDDs and the NMMSS program review
    should provide the staff with information on how to address this issue. Given the staff’s
    confidence in the NMMSS data for those licensees controlling over 99 percent of SNM, the
    report should clarify the basis of its reliability issue, if any exists, for this group of licensees.

6. Page 21, under “NRC/DOE NMMSS Interaction”

    The paragraph at top of page states that a NMMSS report documented that the total
    plutonium at NRC reactor sites was approximately 21 percent more than the Department of
    Energy (DOE) reported (for calendar year 2001). The NRC staff contacted the DOE
    regarding this OIG concern. The DOE clarified that they wanted total plutonium only for spent
    fuel at reactor sites, and that they intentionally omitted from the NMMSS report the quantities
    of plutonium in reactor cores, spent fuel stored at sites other than civilian power reactor sites,
    and plutonium not contained in spent fuel. Based on this clarification from the DOE, the NRC
    staff has no issue with the totals as reported by DOE. This issue was not resolved until after
    the OIG’s draft report was issued; therefore, it was accurate at the time the draft report was
    provided to the staff. The report should recognize the subsequent clarification. This does not
    detract from the central issue the OIG raises regarding NRC-DOE interactions relative to
    NMMSS.

                                                   29
                                               Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                   Appendix D

7. Pages 22-23, under “Procedures for Monitoring Work with DOE”

•   The 2nd bullet indicates that the NRC managers and staff overseeing NMMSS operations and
    contract activities were unable to provide major contract documents required by   MD 11.7.
    We recognize that the documents may not have been readily available per MD 11.7.
    However, the staff has signed, executable versions of major contract documents and would
    welcome the opportunity to assist the OIG auditors in viewing them.

•   The 3rd and 4th bullets indicate that the NRC managers and staff overseeing NMMSS
    operations and contract activities accepted broadly stated Project and Cost Proposals from
    DOE and accepted monthly letter status reports (MLSRs) prepared by the DOE’s contractor
    which consistently lacked sufficient details. The staff believes it has taken repeated actions to
    document problems or inconsistencies noted in the MLSRs provided by DOE’s contractor. In
    addition, there was repeated contact with the DOE Operations Office to pressure it to submit
    the DOE’s MLSR report in a timely manner. We recognize that these activities have not had
    much effect until recently and that these issues could have been escalated sooner. The
    report should acknowledge the staff’s efforts to document problems with MLSRs.

•   The report indicates (page 23) that the NRC’s management eventually assigned an NRC
    technical monitor to represent the NRC’s interests in the NMMSS upgrade. It should be noted
    that there is only one technical monitor for this contract. An additional individual was assigned
    to work with the technical monitor to ensure that the NRC’s reporting requirements were
    adequately addressed in the upgrade. We are not aware that the individual is identified as a
    technical monitor on any contract-related documents, though may be identified as such on
    some non-contract-related documents. To address these comments, the staff recommends
    that the statement be revised to read as follows:

       “Also, while NRC management eventually assigned an NRC technical monitor
       individual to assist the technical monitor in representing NRC’s interests in the
       upgrade, that monitor individual does not possess the computer background
       necessary for identifying and resolving emerging information technology problems
       with the upgrade.

8. Page 24, under “Recommendations”

•   The 1st full paragraph on this page states the following:

       “In addition, NMMSS is not designed to capture foreign obligation information.
       Since international reports are based on NMMSS data, the U.S. Government
       cannot be sure that those reports are complete and accurate. Consequently, the
       U.S. Government may not fully meet the intent of international agreements.”

       [Note: Similar information is provided on pages 17-18 in the section on
       “Completeness of NMMSS Data”]

    The conclusion of this paragraph is incorrect. NMMSS does capture data on nuclear material
    imported into and/or exported from the U.S. (emphasis added) by identifying the source

                                                 30
                                               Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                   Appendix D

    (foreign supplier for imports into the U.S.) and the recipient (authorized foreign intermediate
    and ultimate consignees for exports). The origin of material, if it is other than the country
    which processes and sends it to the U.S., is also recorded. Although the NMMSS system
    captures relevant data, it cannot be electronically manipulated and analyzed. In other words,
    the problem with the current system is that relevant records must be printed and manually
    analyzed (e.g., deciphering codes and adding and subtracting material amounts as it proceeds
    through the various stages of fuel cycle operations). With the continuous advances in
    computer system capabilities, it is not unusual to consider upgrades and identify the various
    features which could be improved. The effort to improve tracking of foreign obligations in a
    more resource-efficient and less labor-intensive manner is only logical.

    The draft report’s assertion that the U.S. is not meeting the intent of its agreements because
    of NMMSS alone is inappropriate. It implies that the U.S. is exporting such material without
    the knowledge and consent of the foreign supplier. This is not the case. While the process of
    identifying the information is not automatic, it can be done. Again, NMMSS is only one
    element of a much broader U.S. system, including a variety of checks and balances
    incorporating advance notices of materials transactions from or specific assurances for receipt
    of materials provided by foreign governments, to reconcile records of materials exported from
    and/or imported into the U.S.

9. Pages 26-27, Section IV, Consolidated List of Recommendations
   (Also applies to recommendations that appear at end of Sections III.A & III.B)

•   Recommendation 1

    It is not clear whether the term “material licensees” refers to fuel cycle materials licensees, or
    industrial and medical materials licensees, or both. The recommendation should clarify to
    which class(es) of material licensees it applies.

    The report does substantiate the need for periodic inspections from risk and regulatory burden
    perspectives. The staff will be conducting an MC&A Program Review as part of its
    comprehensive review of safeguards and security programs. The need for such inspections
    will be considered as part of this review.

•   Recommendation 3

    The staff has determined that any decision to revise the regulations should be made after the
    completion of the NMMSS corrective action project and the MC&A Program Review. These
    structured reviews will provide the needed bases for initiating rulemaking.

•   Recommendations 4, 5, and 6

    The report has not provided a convincing argument for an independent NRC SNM accounting
    system. The costs and programmatic impacts of such a system must be thoroughly evaluated.
    After completing the NMMSS corrective action project, the staff will be in a better position to
    perform such an evaluation. A Capital Planning and Investment Control (CPIC) analysis
    should first be used to determine whether an independent system is more cost effective and

                                                  31
                                             Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                 Appendix D

   meets programmatic requirements. The recommendation should recognize that such an
   analysis should be conducted to determine if recommendations 4, 5, and 6 should be
   accomplished.

10. Page 30, Appendix B, NRC Material Inventory Reporting Requirements to NMMSS

   The 2nd bullet under “Material Balance Reports” contains an inaccuracy. 10 CFR 40.64(b)
   requires a yearly statement if the licensee is authorized to possess, at any one time and
   location, more than 1,000 kg of uranium or thorium, not 1,000 kg or more of foreign origin
   material as stated. The yearly statement identifies what quantity of the 1,000 kg or more of
   source material possessed by the licensee is of foreign origin.




                                               32
                                                 Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                     Appendix E


DETAILED OIG ANALYSIS OF AGENCY COMMENTS

Agency comments:
1. General

•    Much of the report is devoted to problems with the Nuclear Materials Management and
     Safeguards System (NMMSS), the national system for tracking special nuclear material
     (SNM). While the staff recognizes that the NMMSS may not be a reliable system for licensees
     possessing small quantities of SNM, the emphasis on NMMSS is not commensurate with its
     relative importance in accounting for and controlling SNM. Those licensees who are required
     to report a physical inventory to NMMSS possess over 99% of the SNM. The staff has high
     confidence in the SNM inventories for these licensees.

•    Notwithstanding the recent concerns regarding radiological dispersal devices (RDDs), most
     SNM would not be attractive for use in an RDD because of the radiological properties of
     uranium isotopes. The staff intends to use the results of a recently completed report by a joint
     DOE-NRC working group on RDDs to inform the corrective actions it will take to address the
     recommendations in the OIG report.

    OIG Response:
    1s t bullet -
    As stated in the report, NMMSS serves as the U.S. national accounting system for SNM
    satisfying the U.S. obligation under the US/IAEA Agreement. As such, and absent a vigorous
    inspection program to verify licensees compliance with NRC MC&A requirements, including
    accurate reporting of data, accounting for SNM through NMMSS becomes more important as
    a safeguards measure to monitor SNM use. Furthermore, the agency does not provide
    support for its comment that licensees required to submit physical inventory reports to NMMSS
    possess “over 99%” of the SNM. The agency’s high confidence in the SNM inventories for
    these licensees may be misplaced because NRC relies on flawed reconciliation processes
    used by NMMSS to substantiate the inventory amounts reported by licensees to the database.
    For instance, NRC does not verify the accuracy of the data reported by licensees to NMMSS
    and the initial inventory balances reported to NMMSS were not validated.

    Given that NMMSS serves as the national system costing NRC $1.5 million per year, its
    identification as relatively unimportant is indicative of the agency’s lack of attention highlighted
    in this report.

    2nd bullet -
    OIG recognizes that NRC recently participated in an interagency working group with DOE,
    whose objective was to address key issues associated with RDDs, including the identification
    of the radioactive materials of greatest concern for use in an RDD. However, the scope of the
    study excluded a review of most SNM.




                                                    33
                                               Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                   Appendix E

Agency Comment:
2. Pages 5-6, under “US/IAEA Agreement” (now page 4 of this report)

The report states that the US/IAEA Agreement and its implementation in accordance with 10 CFR
Part 75, applies to all SNM. However, Section 75.4(k) states that the requirements of 10 CFR
Part 75 only apply to “installations,” as defined in § 75.2(a). Most of the small quantity SNM
licensees discussed in other parts of the report are not “installations” as defined in Part 75. In
addition, § 75.3 provides for certain exemptions to these requirements. The 2nd line of this
paragraph, if worded as “...standards to all SNM held by domestic facilities installations,
excluding...” would accurately depict the situation.

    OIG Response:
    The agency incorrectly asserts that the report states that the US/IAEA Agreement “and its
    implementation in accordance with 10 CFR Part 75,” applies to all SNM. The report clearly
    states that the U.S. Government agreed to apply IAEA “safeguards standards” to all SNM held
    by domestic facilities. 10 CFR Part 75, as stated in the report, officially recognized NMMSS as
    the national system of accounting for SNM. Nonetheless, OIG changed the word “facilities” to
    “installations” because it does not alter the message of this paragraph.




Agency Comments:
3. Page 8, Section III, Findings (now page 6 of this report)

•    The report states that the NRC’s material control and accounting (MC&A) inspection program
     does not adequately ensure licensees properly account for and control SNM. This statement
     is overly broad in that MC&A programs are necessarily different for different types of licensees
     because of the variation in risk. The staff believes that it has adequately implemented an
     MC&A oversight program utilizing a risk-informed approach. The report should address the
     adequacy or inadequacy of this approach and its impact on the accountability and control of
     SNM by different types of licensees.

•    The report states that without adequate MC&A inspections or a reliable system for tracking
     SNM, the NRC has no independent basis for determining if SNM was lost stolen or otherwise
     diverted, relying on licensees’ data as the “official” record. The specific responsibility for
     safeguarding nuclear material assigned to the NRC in the Energy Reorganization Act of 1974
     is “monitoring, testing and recommending upgrading of internal accounting systems for special
     nuclear and other nuclear material licensed under the Atomic Energy Act of 1954, as
     amended.” “Internal” in this language refers to the licensees’ systems. Responsibility for
     accounting and control of SNM resides with the licensees. The report should address how
     well the staff is verifying licensees’ execution of their SNM accountability and control
     responsibilities.




                                                 34
                                                 Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                     Appendix E


    OIG Response:
    1s t bullet -
    The report states that MC&A programs, and inspections of those programs, differ and that the
    staff believes the current level of oversight is adequate from a risk-informed view. In fact, the
    staff consistently discussed the use of a risk-informed approach in determining who, and what,
    to inspect regarding MC&A. Although OIG requested documentation for the basis of this risk-
    informed approach, the agency was unable to provide a documented basis or framework used
    to risk inform their oversight of MC&A activities for all types of materials licensees.
    Consequently, OIG recommends that the agency document the basis for this approach (see
    Recommendation #3 on the Consolidated List of Recommendations).

    2nd bullet -
    OIG agrees that the primary responsibility for accounting and control of SNM resides with the
    licensees (see page 1 of the report). Nonetheless, as the report states, it is NRC’s
    responsibility to implement and enforce the rules, regulations, and license conditions
    governing licensees use of SNM. The entirety of Finding A substantiates OIG’s conclusion
    that NRC’s current level of verification of licensees’ execution of their MC&A responsibilities is
    inadequate. As agreed to by NRC in Comment 9, the report does substantiate the need for
    periodic inspections of licensees’ MC&A activities.




Agency Comments:
4. Page 11, under “Research and Test Reactors” (now page 8 of this report)

•    The report addresses aspects of what inspectors do at non-power reactors relative to MC&A
     programs. The focus should be on the adequacy or inadequacy of the inspection procedures
     and the basis for this conclusion since the inspectors are following approved inspection
     procedure guidance.

•    Given that NRC’s inspectors do perform some limited validation of calculations using a rule of
     thumb for uranium burnup with megawatt days of burnup, the last sentence should be revised
     to state:

         However, They also do not validate perform limited validation of licensees’
         calculations, nor the. However, the inspectors do not verify that data reported by
         the licensees to NMMSS is accurately kept in the database.

    OIG Response:
    The inspection procedure for MC&A at reactors provides guidance to the research and test
    reactor inspectors. However, as stated in the report, these inspectors said their MC&A
    inspections are very limited compared to the multi-day reviews conducted in the past MC&A
    due to resource constraints and lack of MC&A expertise. For instance, as stated by one
    inspector, he may run a licensee’s calculation to see if he can produce the same end result,
    but he does not validate the calculation methodology. No change made to the report.


                                                   35
                                                 Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                     Appendix E



Agency Comment:
5. Page 19, under “Use of NMMSS to Support Agency Activities” (now page 14 of this
   report)

•    The report states that the NRC relies on licensee inventory data because NMMSS data is
     unreliable. A more accurate rationale would be that the NRC relies on licensee records
     because they are more timely and detailed. For example, information on the quantities of SNM
     at the fuel cycle facilities changes daily. As such, by the time that licensee data gets into the
     NMMSS database, the data can be out of date. Also, the SNM data in NMMSS is highly
     summarized, while the facility has data at a detailed item level. NMMSS was never intended
     to report inventories on a near real-time basis or to track location of SNM within a licensee
     site. Clearly, NMMSS may have reliability problems relative to licensees possessing small
     quantities of SNM. Both the aforementioned report on RDDs and the NMMSS program review
     should provide the staff with information on how to address this issue. Given the staff’s
     confidence in the NMMSS data for those licensees controlling over 99 percent of SNM, the
     report should clarify the basis of its reliability issue, if any exists, for this group of licensees.

    OIG Response: (See response to comment 1.)
    During this review, agency staff cited the NMMSS reconciliation process (i.e., ensure licensee
    reported inventory amounts match those recorded by NMMSS) as the basis for their
    confidence in the inventory balances for licensees possessing large quantities of SNM. This
    confidence is unwarranted for several reasons, including: licensees’ reported data is not
    validated; agency and NMMSS staff identified weaknesses in the NMMSS reconciliation
    process, such as, changing methodologies, lag time in completing reconciliation on NRC-
    licensee accounts and leaving the database open during reconciliation processing; and a
    DOE/IG report that identified more than one licensee possessing substantial amounts of SNM
    as having negative NMMSS balances. Finally, although nuclear power plant licensees are
    required to annually reconcile their inventory data to NMMSS records, inconsistencies existed
    between the Millstone licensee’s SNM inventory amount and that reflected in NMMSS. An
    effective reconciliation process would have recognized negative balances that, in this case,
    remained undetected for years.




Agency Comment:
6. Page 21, under “NRC/DOE NMMSS Interaction” (now pages 14-15 of this report)

     The paragraph at top of page states that a NMMSS report documented that the total plutonium
     at NRC reactor sites was approximately 21 percent more than the Department of Energy
     (DOE) reported (for calendar year 2001). The NRC staff contacted the DOE regarding this
     OIG concern. The DOE clarified that they wanted total plutonium only for spent fuel at reactor
     sites, and that they intentionally omitted from the NMMSS report the quantities of plutonium in
     reactor cores, spent fuel stored at sites other than civilian power reactor sites, and plutonium
     not contained in spent fuel. Based on this clarification from the DOE, the NRC staff has no
     issue with the totals as reported by DOE. This issue was not resolved until after the OIG’s


                                                    36
                                                Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                    Appendix E

     draft report was issued; therefore, it was accurate at the time the draft report was provided to
     the staff. The report should recognize the subsequent clarification. This does not detract from
     the central issue the OIG raises regarding NRC-DOE interactions relative to NMMSS.

    OIG Response:
    OIG acknowledges that, subsequent to the issuance of our draft report, NRC and DOE staff
    communicated on this issue. The circumstances described above in Comment #6 were used
    in the report to demonstrate the ineffective interaction between NRC and DOE staff relative to
    NMMSS activities. The fact that it took nearly a year, and an OIG report, to prompt discussion
    of an apparent significant discrepancy further illustrates the cited problems.




Agency Comments:
7. Pages 22-23, under “Procedures for Monitoring Work with DOE” (now pages 16-17 of
   this report)

•    The 2nd bullet indicates that the NRC managers and staff overseeing NMMSS operations and
     contract activities were unable to provide major contract documents required by   MD 11.7.
     We recognize that the documents may not have been readily available per MD 11.7.
     However, the staff has signed, executable versions of major contract documents and would
     welcome the opportunity to assist the OIG auditors in viewing them.

•    The 3rd and 4th bullets indicate that the NRC managers and staff overseeing NMMSS
     operations and contract activities accepted broadly stated Project and Cost Proposals from
     DOE and accepted monthly letter status reports (MLSRs) prepared by the DOE’s contractor
     which consistently lacked sufficient details. The staff believes it has taken repeated actions to
     document problems or inconsistencies noted in the MLSRs provided by DOE’s contractor. In
     addition, there was repeated contact with the DOE Operations Office to pressure it to submit
     the DOE’s MLSR report in a timely manner. We recognize that these activities have not had
     much effect until recently and that these issues could have been escalated sooner. The
     report should acknowledge the staff’s efforts to document problems with MLSRs.

•    The report indicates (page 23) that the NRC’s management eventually assigned an NRC
     technical monitor to represent the NRC’s interests in the NMMSS upgrade. It should be noted
     that there is only one technical monitor for this contract. An additional individual was assigned
     to work with the technical monitor to ensure that the NRC’s reporting requirements were
     adequately addressed in the upgrade. We are not aware that the individual is identified as a
     technical monitor on any contract-related documents, though may be identified as such on
     some non-contract-related documents. To address these comments, the staff recommends
     that the statement be revised to read as follows:

         “Also, while NRC management eventually assigned an NRC technical monitor
         individual to assist the technical monitor in representing NRC’s interests in the
         upgrade, that monitor individual does not possess the computer background



                                                  37
                                                Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                    Appendix E

         necessary for identifying and resolving emerging information technology problems
         with the upgrade.

    OIG Response:
    As stated in the report, insufficient allocation of resources for overseeing NMMSS has resulted
    in ineffective monitoring of NMMSS operations and contract activities. The items referenced
    above from the report are intended to provide examples of problems (i.e., challenges staff
    face) with contract monitoring activities. The agency's comments that signed versions of
    contract documents were not readily available and that efforts to improve the problems with
    MLSRs were not effective until recently, support the point in the report. OIG repeatedly asked
    NRC program staff for signed versions of contract documents. Because program staff did not
    provide these documents in a timely manner, OIG obtained these documents from the Office of
    the Chief Financial Officer and the Office of Administration.

    With regard to the upgrade technical monitor - the individual assigned as the technical monitor
    for the NMMSS upgrade understood that role to be to monitor DOE's management of the
    upgrade and to keep NRC staff informed of project progress. Further, as the agency states,
    the individual is identified as a technical monitor on non-contract-related documents and
    represented the agency as such. Regardless of the individual's title, this situation represents
    another example of ineffective contract monitoring (i.e., NRC did not assign a qualified staffer
    with the computer background necessary to identify emerging information technology
    problems in the NMMSS upgrade). No change made to the report.




Agency Comments:
8.   Page 24, under “Recommendations” (under “Summary,” now page 17 of this report)

•        The 1st full paragraph on this page states the following:

                “In addition, NMMSS is not designed to capture foreign obligation
                information. Since international reports are based on NMMSS data,
                the U.S. Government cannot be sure that those reports are
                complete and accurate. Consequently, the U.S. Government may
                not fully meet the intent of international agreements.”

                [Note: Similar information is provided on pages 17-18 in the section
                on “Completeness of NMMSS Data”]

         The conclusion of this paragraph is incorrect. NMMSS does capture data on nuclear
         material imported into and/or exported from the U.S. (emphasis added) by identifying the
         source (foreign supplier for imports into the U.S.) and the recipient (authorized foreign
         intermediate and ultimate consignees for exports). The origin of material, if it is other than
         the country which processes and sends it to the U.S., is also recorded. Although the
         NMMSS system captures relevant data, it cannot be electronically manipulated and
         analyzed. In other words, the problem with the current system is that relevant records


                                                   38
                                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                  Appendix E

       must be printed and manually analyzed (e.g., deciphering codes and adding and
       subtracting material amounts as it proceeds through the various stages of fuel cycle
       operations). With the continuous advances in computer system capabilities, it is not
       unusual to consider upgrades and identify the various features which could be improved.
       The effort to improve tracking of foreign obligations in a more resource-efficient and less
       labor-intensive manner is only logical.

       The draft report’s assertion that the U.S. is not meeting the intent of its agreements
       because of NMMSS alone is inappropriate. It implies that the U.S. is exporting such
       material without the knowledge and consent of the foreign supplier. This is not the case.
       While the process of identifying the information is not automatic, it can be done. Again,
       NMMSS is only one element of a much broader U.S. system, including a variety of checks
       and balances incorporating advance notices of materials transactions from or specific
       assurances for receipt of materials provided by foreign governments, to reconcile records
       of materials exported from and/or imported into the U.S.

  OIG Response:
  The report concludes that NMMSS does not capture foreign obligation information. This
  conclusion is correct. NMMSS captures information on country of origin, not foreign
  obligations. The distinction between "country of origin" and "foreign obligation" is that "country
  of origin" provides a record of where the material originated from while "foreign obligation" tags
  those materials held by the U.S. which are subject to bilateral or multi-lateral reporting
  requirements. Not all imported nuclear materials are subject to foreign obligations. The
  NMMSS upgrade is designed to provide this capability. Until that improved capability is
  available, DOE and NRC must use NMMSS-generated reports using country of origin
  information and must manually manipulate the data as described in the agency's comments
  above. Furthermore, over several years, NRC repeatedly requested that DOE include foreign
  obligation tracking capability in the NMMSS upgrade, and was only recently successful in
  gaining their commitment.

  The report states that ". . . the U.S. Government may not fully meet the intent of international
  agreements in regards to account balances." OIG believes the intent of international
  agreement reporting requirements is to ensure the U.S. accurately and fully accounts for
  material imported from the foreign nation with which the U.S. maintains an agreement. OIG
  does not intend to imply that the U.S. is exporting such material without the knowledge and
  consent of the foreign supplier. Rather, the basis (NMMSS data) used to prepare material
  balance reports required under international agreements contains inaccuracies and is
  incomplete.




Agency Comments:
9.   Pages 26-27, Section IV, Consolidated List of Recommendations (now page 19 of
     this report)
     (Also applies to recommendations that appear at end of Sections III.A & III.B)



                                                 39
                                                 Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                     Appendix E

•        Recommendation 1

         It is not clear whether the term “material licensees” refers to fuel cycle materials licensees,
         or industrial and medical materials licensees, or both. The recommendation should clarify
         to which class(es) of material licensees it applies.

         The report does substantiate the need for periodic inspections from risk and regulatory
         burden perspectives. The staff will be conducting an MC&A Program Review as part of its
         comprehensive review of safeguards and security programs. The need for such
         inspections will be considered as part of this review.

•        Recommendation 3 (now Recommendation 4 in this report)

         The staff has determined that any decision to revise the regulations should be made after
         the completion of the NMMSS corrective action project and the MC&A Program Review.
         These structured reviews will provide the needed bases for initiating rulemaking.

    OIG Response:
    Recommendation 1

    The term "material licensees" refers to both fuel cycle materials licensees and industrial and
    medical materials licensees.

    Recommendation 3

    The NMMSS Corrective Action Project is intended to address specific discrepancies identified
    in a DOE/IG report, which stated that DOE could not fully account for nuclear materials loaned
    or leased to NRC and Agreement State licensees because of discrepancies in NMMSS.
    Those corrective actions do not include activities to resolve the root cause(s) for the
    discrepancies that this recommendation is partially intended to address. Therefore, OIG, does
    not see the wisdom of deferring a decision to revise the regulations until the completion of that
    project. The OIG does, however, recognize the value of conducting the MC&A Program
    Review as it relates to this recommendation and will closely monitor the progress of this
    review.




Agency Comment:

Recommendations 4, 5, and 6 (now Recommendations 5, 6, and 7 in this report)

         The report has not provided a convincing argument for an independent NRC SNM
         accounting system. The costs and programmatic impacts of such a system must be
         thoroughly evaluated. After completing the NMMSS corrective action project, the staff will
         be in a better position to perform such an evaluation. A Capital Planning and Investment
         Control ( CPIC) analysis should first be used to determine whether an independent system


                                                   40
                                              Audit of NRC’s Regulatory Oversight of Special Nuclear Materials
                                                                                                  Appendix E

       is more cost effective and meets programmatic requirements. The recommendation should
       recognize that such an analysis should be conducted to determine if recommendations 4,
       5, and 6 should be accomplished.

  OIG Response to Recommendations 4, 5, and 6:
  The report concludes that NRC needs an accurate and reliable system for monitoring and
  tracking how effectively its licensees’ report required SNM inventory information to a national
  system of accounting. The report clearly establishes the weaknesses in the current
  arrangement to co-sponsor NMMSS with DOE.

  Although the agency has initiated efforts in the past to study the possibility of withdrawing as a
  co-sponsor of NMMSS and establishing an independent tracking system, those efforts were
  never completed despite the annual investment of more than $1.5 million in a system known to
  have deficiencies limiting its usefulness. Therefore, OIG stands by its recommendation that
  NRC establish an independent system of accounting for SNM possessed by NRC and
  Agreement State licensees.




Agency Comment:
10.  Page 30, Appendix B, NRC Material Inventory Reporting Requirements to NMMSS
     (now page 23 of this report)

The 2nd bullet under “Material Balance Reports” contains an inaccuracy. 10 CFR 40.64(b)
requires a yearly statement if the licensee is authorized to possess, at any one time and location,
more than 1,000 kg of uranium or thorium, not 1,000 kg or more of foreign origin material as
stated. The yearly statement identifies what quantity of the 1,000 kg or more of source material
possessed by the licensee is of foreign origin.

  OIG Response:
  While the report’s reference to 1,000 kg is correct, the subtlety in the language is noted and
  the wording in the report has been revised accordingly.




                                                 41
